OIG Audit Report GR-60-08-011

Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by Humboldt County, California

Audit Report GR-60-08-011


September 2008
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP) to Humboldt County, California. As of April 15, 2008, Humboldt County had received SWBPI funding totaling $728,445.
 Many drug and other criminal cases occurring along the southwest border are initiated by a federal law enforcement agency or multi‑jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF). Many U.S. Attorneys, including the U.S. Attorney for the Northern District of California, have developed prosecution guidelines which govern the most common violations of federal law. These prosecution guidelines are used by law enforcement agencies to determine whether to file a case in federal, state, or county court. As a result, many federally initiated cases occurring near the southwest border are referred to the state or county for prosecution. 
 The SWBPI was established in Fiscal Year (FY) 2002, when Congress began appropriating funds to reimburse state, county, parish, tribal, and municipal governments for costs associated with the prosecution of criminal cases declined by local U.S. Attorneys’ offices. Reimbursements received from SWBPI funding may be used by applicant jurisdictions for any purpose not otherwise prohibited by federal law. For FY 2008, Congress appropriated $30 million for the SWBPI.
The objective of our audit was to determine if the SWBPI reimbursements received by Humboldt County were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI.
 We found that Humboldt County claimed and was reimbursed for cases that were ineligible under the SWBPI guidelines. Based on the deficiencies listed below, we identified questioned costs totaling $555,888.1 Specifically, we found that Humboldt County: 

 Received unallowable reimbursements totaling $525,347 for 179 cases which were not federally initiated. 
 Received excess reimbursements totaling $30,542 for 15 cases which were claimed under the both prosecution and pre-trial detention category, but should have been claimed as prosecution only because the defendant was not held overnight.2

 These issues are discussed in detail in the Findings and Recommendations section of the report. Our audit Objectives, Scope, and Methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.
Throughout this report differences in total amounts are due to rounding. Additionally, differences in total percentages as compared to the sum of individual component percentages are due to rounding.








Return to OIG Home Page